No. 20IN THE

ibupreme Court of the tinitert ibtatni

IQVIA INC.,
Petitioner,
v.
FLORENCE MUSSAT, M.D. S.C., on behalf of itself
and all others similarly situated,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,001 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
0
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 13, 2020.

,
4

Colin Casey I " ogan
Wilson-Epes Printing Co., Inc.

